<html>
<title> - [H.A.S.C. No. 115-73] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2019 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 115-73]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                     EVOLUTION, TRANSFORMATION, AND

                       SUSTAINMENT: A REVIEW AND

                   ASSESSMENT OF THE FISCAL YEAR 2019

                    BUDGET REQUEST FOR U.S. SPECIAL

                     OPERATIONS FORCES AND COMMAND

                               __________

                              HEARING HELD
                           FEBRUARY 15, 2018
                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-996                    WASHINGTON : 2018                 




                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
DOUG LAMBORN, Colorado               BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                STEPHANIE N. MURPHY, Florida
JODY B. HICE, Georgia
                Pete Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk































                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Thomas, GEN Raymond A., USA, Commander, U.S. Special Operations 
  Command........................................................     6
West, Owen, Assistant Secretary of Defense for Special 
  Operations/Low-Intensity Conflict, U.S. Department of Defense..     4

                                APPENDIX

Prepared Statements:

    Stefanik, Hon. Elise M.......................................    25
    Thomas, GEN Raymond A........................................    39
    West, Owen...................................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Hice.....................................................    65
    Ms. Stefanik.................................................    65

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................    71
    Ms. Speier...................................................    69
    Mr. Wilson...................................................    70






              EVOLUTION, TRANSFORMATION, AND SUSTAINMENT:
            A REVIEW AND ASSESSMENT OF THE FISCAL YEAR 2019
     BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS FORCES AND COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                       Washington, DC, Thursday, February 15, 2018.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order. I am 
pleased to welcome everyone to this important hearing entitled, 
``Evolution, Transformation, and Sustainment: A Review of the 
Fiscal Year 2019 Budget Request for U.S. Special Operations 
Forces and Command.'' The fiscal year 2019 budget request for 
U.S. Special Operations Command [SOCOM] totals more than $13.6 
billion, an approximate 10 percent increase, and the largest 
request ever submitted. It also seeks additional personnel 
authorizations, putting the total size of the force above 
71,000, the largest ever envisioned. While I am pleased to see 
continued fiscal support for special operations forces [SOF], 
it is deeply troubling to see continued dependency on overseas 
continued [contingency] operations funding [OCO]. This problem 
is most acute in the operations and maintenance accounts, where 
OCO is an alarming 33 percent.
    One year ago, before this very committee, General Thomas 
wisely noted that such dependency has created a force that is, 
quote, ``largely a facade,'' unquote. Unfortunately, we find 
ourselves in the same place today, if not worse. Working 
together, we must commit to remedy this imbalance. And I look 
forward to talking about concrete ways in which this committee 
can help, while you continue to help yourselves. This 10 
percent budget increase also reminds us that we must work to 
ensure we are not choosing quantity over quality, and that 
special operations forces remain balanced across the entirety 
of the joint operating force and the military services, who 
are, themselves, experiencing near existential readiness 
crises.
    The recently released National Defense Strategy [NDS] 
indeed places special operations forces central to efforts 
across the full spectrum of non-state and state threats. Rising 
and asymmetric challenges posed by Russia and China and the 
potential for contingencies on the Korean Peninsula impair our 
ongoing efforts in Afghanistan, Iraq, Syria, Yemen, and 
Somalia. All this while SOF also maintains a presence in some 
80 additional countries today. Now, more than ever, we run the 
risk of overextending our SOF forces, who are central to our 
national defense.
    Of particular concern, we see the fight in Syria changing. 
More and more, our forces are engaging Russian and Syrian 
regime proxies, as most recently seen in the aggressive 
fighting in Deir al-Zour. The defeat of ISIS [Islamic State of 
Iraq and Syria] now reveals the fingerprints of the larger 
geopolitical fight we are engaged in, putting at risk current 
authorities, frameworks, and partnerships, and not to mention 
the considerable risk to our forces on the ground in an already 
clouded and fractured battlefield.
    I look forward to hearing from both of our witnesses today 
how our special operations forces are postured to support the 
new National Defense Strategy, while also continuing forward as 
the main line of effort in our current efforts across the 
globe.
    A large part of this subcommittee charge is looking far 
ahead to consider what's next. In doing so, I see many 
challenges, but also great opportunities in emerging 
technologies such as AI [artificial intelligence], quantum 
computing, nanotechnology, synthetic biology, the Internet of 
Things, and many others that will provide a significant 
battlefield advantage for special operations forces and the 
broader joint force. We must ensure that we are doing 
everything we can to push the technological edge and maintain a 
battlefield advantage. Rest assured, our near-peer adversaries 
are already aggressively exploring these technologies, which 
present both economic and national security challenges for our 
Nation. To this end, I am somewhat disappointed that SOCOM's 
budget request decreases research and development [R&D] funding 
for a second year in a row. I look forward to hearing the 
rationale for this, and taking any necessary steps to ensure we 
do not lose our technological and battlefield advantages.
    Needless to say, there is a lot of ground to cover today. I 
would like to welcome both of our witnesses, Mr. Owen West, the 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict [SO/LIC], and General Tony Thomas, Commander 
of U.S. Special Operations Command. Since this is Mr. West's 
first appearance before the House Armed Services Committee, let 
me congratulate you on your confirmation as Assistant Secretary 
of Defense for Special Operations, and we look forward to 
working with you. I would also like now to recognize my friend 
and the ranking member, Jim Langevin, from Rhode Island, for 
any opening comments he would like to make.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Madam Chair. And thank you, 
Secretary West. I want to welcome you before the committee. And 
General Thomas, I want to thank you both for appearing before 
us today and for your service to our Nation. It is great to 
have you back, General. Last year in my opening statement on 
the U.S. Special Operations Command budget request, I 
highlighted the ever-increasing demand for reliance on special 
operations forces by combatant commanders, as the chair has 
also referenced in her opening statement. Today, that demand 
and reliance has not decreased. In fact, under the new National 
Defense Strategy it will likely increase with the focus on 
inter-state competition with gray zone conflicts below the 
level of armed conflict. Our special operators have a myriad of 
critical skill sets that can be employed across the full 
spectrum of conflict, yet we must be prudent about how the 
force is employed, or we risk breaking the tip of the spear. 
After 17 years, the global counterterrorism fight is by no 
means over. At the same time, we must be prepared for future 
activities and conflicts in which potential adversaries have 
made gains in technologies like robotics and biotechnology, and 
have new capabilities aimed at achieving information dominance.
    The fiscal year 2019 budget request for USSOCOM is $13.6 
billion, just 2 percent of the overall Department of Defense 
[DOD] request. Reflected in the request are more robust 
investments for enhancing SOF operations throughout the 
information environment, including enhanced cyber and network 
resiliency capabilities. As a result of section 1637 of the 
National Defense Authorization Act [NDAA] for FY [fiscal year] 
2018, the Secretary of Defense has directed USSOCOM to 
establish a centralized capability for military information 
support operations, global messaging, and counter-messaging. 
The FY 2019 request includes $18 million to that end.
    This hearing provides us with an opportunity to understand 
how USSOCOM will fulfill its roles and responsibilities under 
section 1637 to better enable an enhanced approach to maximize 
effects from the tactical to strategic levels, while 
contributing to a whole-of-government effort. As in years past, 
much of the USSOCOM funding request, particularly in the 
operations and maintenance accounts, remains part of the 
overseas contingency operations. However, many of these 
activities and programs are enduring, which means their 
classification remains a serious concern for me. Baseline 
funding is crucial to provide USSOCOM stability for programming 
and, reflected properly, it would enable us to better 
understand defense spending in the current and the out-years.
    In addition to a dialogue about the demands on our force, 
readiness for current and future contingencies, and associated 
resource requests, there are several legislative and policy 
issues at hand to discuss. This includes implementation of 
section 922 of the NDAA regarding the role and responsibilities 
of your office, Secretary West. And I look forward to hearing 
your vision and efforts for implementing reforms intended to 
empower your position to effectively conduct internal oversight 
and advocacy.
    SOF are engaged in operational activities globally under 
legislative authorities carefully overseen by the committee. 
Section 1209 of the FY 2015 NDAA authorizes the Department to 
provide assistance to vetted Syrian opposition forces. SOF 
continue to advise and assist in the fight against ISIL 
[Islamic State of Iraq and the Levant] in Syria, where we have 
seen remarkable progress. A transition to stability operations 
has begun in many areas. So with 1209 set to expire on December 
31, 2018, I would like to ask our witnesses their perspective 
on an extension of that authority, and how would continued 
training and assistance be scoped if, in fact, an extension is 
granted? In closing, I, again, want to thank our witnesses for 
being here today, and express my gratitude to the men and women 
of our Armed Forces around the globe. I know you have 
extraordinary responsibilities and burdens on your shoulders. 
The Nation is grateful for the work that you do and for your 
service. With that, Madam Chair, I yield back.
    Ms. Stefanik. Thank you, Jim. And I want to take this 
moment to remind our members that immediately following the 
open hearing, the committee will reconvene right next door in 
2216 for a closed, classified roundtable discussion with both 
of our witnesses. Before we begin, I also want to remind our 
witnesses that your full written statements will be submitted 
for the record. And we ask that you summarize those statements 
in 5 minutes or less for your opening statements. Secretary 
West, we will begin with you, and I look forward to your 
opening statement.

  STATEMENT OF OWEN WEST, ASSISTANT SECRETARY OF DEFENSE FOR 
 SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary West. Thank you, Chairwoman. Chairwoman, Ranking 
Member, and distinguished members of this committee, I am 
honored to appear before you as the Assistant Secretary of 
Defense of Special Operations/Low-Intensity Conflict. In my 
short time on the job, I have been most impressed by the level 
of commitment demonstrated by my staff and their U.S. Special 
Operations Command teammates. There exists a relentless but 
thoughtful focus on warfighting, which is unsurprising in an 
enterprise led by Secretary Mattis. I am pleased to share this 
opportunity with one such warfighter. From 2001 to 2013, 
General Tony Thomas deployed every year to combat. He is a 
reflection of the force he leads, from his deployment cycle to 
the intellectual creativity and competitive drive he shares 
with his fellow operators.
    I mentioned competitiveness because we have a new National 
Defense Strategy that clarifies my priorities, none bigger than 
helping General Thomas steadily build competitive advantage 
across the vast spectrum of warfare special operations calls 
home. The NDS calls for a new era, where we compete in what 
Secretary Mattis calls the contact layer, the daily clash of 
national will that occurs short of armed conflict, where your 
special operations forces are today building relationships and 
reducing the enemy. The task is to remain unpredictable but 
expansive, pushing the competitive boundaries in ways our 
enemies do not expect. To sustain this expansion, we must be 
fiscally hawkish, reducing asymmetry by adopting a focus on 
return on investment.
    Overhead costs increase as you move from tooth to tail. In 
business, we call this upstream inflation. For example, 
$500,000 in Washington, DC, can buy you a think-tank report, 
whereas $500,000 deployed in the field with a captain as a 
chief investment officer can be leveraged into a force of 
highly trained indigenous allies.
    Secretary Mattis' business reform efforts seek to make the 
force more lethal, and resource allocation that prioritizes the 
operating forces is the next logical step. The 127 Echo program 
is an example of best practices investing. I would like to 
thank Congress for continuing to support 127e, which has grown 
from a pilot program to a $100 million lever that has had a 
direct impact in steadily clawing back territory lost to ISIS 
to name a single impact point.
    Likewise, section 1202 is an example of Congress' forward-
leaning investment to counter unconventional threats. I see 
these authorities as part of Congress' strong and continued 
investment in SOF. My commitment to you is to focus on returns. 
USSOCOM amounts to roughly 1.9 percent of the DOD budget, which 
enables a global presence in 90 countries. This capital 
expenditure fuels the current fight, but it must also result in 
long-term competitive advantage.
    The most important capital investment is human. Everyone on 
this committee is well aware of the demand inelasticity for 
SOF. We simply lack the supply to satisfy all customers. 
General Thomas has already taken the first step in sustainment 
by addressing dwell time, and a second step by conducting a 
comprehensive prioritization review. That leaves mission set.
    As Secretary Mattis indicated in late December, our 
conventional force is capable right now of assuming some of 
these missions. I say that leaves mission set because our other 
option is growing the force. Our 2019 budget request does 
include modest end strength increases for SOF across each of 
the services, but the growth rate has slowed precipitously. SOF 
cannot be quickly grown. Today, we face a natural resource that 
is fully tapped by traditional service recruiting. Only 30 
percent of high schoolers are qualified for military service. 
We must, therefore, explore unconventional techniques and new 
pools to recruit men and women who have the right stuff.
    Today's battlefield has challenged the traditional 
definition of a combatant. Successfully operating in the global 
contact layer demands that we build a diverse force. The SOF 
entry standards are high, but America has always encouraged its 
pioneers. We need more candidates without military histories, 
we need more cultural diversity, we need more women.
    SOF tryouts are life-altering experiences. The reward is 
joining an elite team, where the commitment to each other is as 
strong as the commitment to country. That human element is the 
key element in SOCOM. General Thomas runs a global risk-reward 
venture, and human failure is inevitable. When mistakes are 
made, one of my principal responsibilities is to ensure 
transparency and provide you the necessary and appropriate 
information. We owe it to the families, the Department [of 
Defense], Congress, and the American people to complete 
investigations with thoroughness, diligence, and timeliness.
    We will take all steps necessary to protect our greatest 
asset, those men and women who have volunteered several times 
over to earn the title of special operators. Their fervent 
defense of our beloved Nation makes us all proud. I will never 
lose sight of that.
    I want to end on section 922. I view Congress as a natural 
partner. During my confirmation hearing, I promised to remain 
close to Congress because of that natural partnership. There 
should be no surprises. The Department is reviewing the 
implementation of 922. General Thomas and I are partners in 
this effort. We will move together to implement it. Our goal is 
to make SOCOM a more efficient enterprise that supports the 
National Defense Strategy and the Secretary of Defense. Thank 
you, and I look forward to your questions.
    [The prepared statement of Secretary West can be found in 
the Appendix on page 27.]
    Ms. Stefanik. Thank you, Secretary West. General Thomas.

   STATEMENT OF GEN RAYMOND A. THOMAS, USA, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    General Thomas. Chairwoman Stefanik, Representative 
Langevin, and distinguished members of the committee, I am 
honored to appear before you to provide an update on the 
posture of United States Special Operations Command and our 
superb special operations forces. I am pleased to share the 
table with our new Assistant Secretary for Special Operations, 
Owen West. Working closely with Secretary West, we are 
embracing section 922 as the natural evolution of SOCOM's 
service-like responsibilities that Congress envisioned when you 
created us 31 years ago.
    Let me summarize the posture of SOCOM and your special 
operations forces. We continue to have outsized effects around 
the globe, defeating our enemies, training, equipping, and 
enabling our friends and allies, rapidly transforming the 
organization to be prepared for all future threats, and caring 
for our fallen, wounded, and ill, and their families. Your 
special operations forces are doing phenomenal work. Since I 
last appeared before this committee, SOCOM's primary focus has 
continued to be on the defeat of ISIS and al-Qaida and their 
affiliates. Special operations forces played an integral role 
as part of the joint force in the destruction of ISIS's 
physical caliphate in Syria and Iraq.
    In coordination with allied and host nation partners, 
special operations forces continue to confront ISIS and al-
Qaida wherever they sought sanctuary: in Afghanistan, Yemen, 
Libya, Somalia, the trans-Sahel, Lake Chad basin, the Maghreb, 
and even as far off as the Philippines. In addition to our 
historic efforts to confront violent extremism, SOCOM continues 
to enhance our role as part of the joint force in assuring 
allies and improving their capabilities in the face of 
aggressive regional hegemons, reinforcing host nation and law 
enforcement efforts in the Western Hemisphere in defense of our 
national boundaries, and preparing for contingency operations.
    Our successes are directly attributable to recruiting and 
training amazing Americans, outfitting them with the best 
equipment and training in the world, and empowering them with 
the requisite authorities to defeat our adversaries. Our people 
continue to be the decisive advantage. Congress' support 
continues to be key in our efforts in the form of necessary 
resources and specific authorities. With title 10, section 127 
Echo, Congress allowed special operations forces to support 
vetted foreign forces against terrorist groups. It is a 
powerful authority directly responsible for neutralizing 
hundreds of enemy leaders and fighters.
    Section 1209 of the 2015 NDAA allowed special operations 
forces to train and equip a 50,000-plus person force of vetted, 
Kurdish, and Arab Syrians to remove ISIS from 98 percent of the 
territory they once held in Syria. 1209 played a decisive role 
in the military defeat of ISIS's physical caliphate.
    In this year's NDAA, you provided us section 1202, an 
authority special operations forces will employ to support 
friends and dissuade aggression by strategic competitors. We 
think it will provide us a distinct operational advantage, and 
thank you for this important irregular warfare authority. 
Congress has continued to provide us with all the resourcing we 
need to do our job. As you two mentioned in your preamble and 
Secretary West mentioned in his, in fiscal year 2017, our 
budget was $11.8 billion. Our projected budget for fiscal year 
2018 is $12.3 billion; and fiscal year 2019 is projected to be 
$13.6 billion. At 1.9 percent of the total DOD budget, with 
roughly matching sister service contributions, special 
operations forces provide unique and highly effective 
capabilities and extraordinary return on investment across the 
full spectrum of conflict.
    Defeating our enemies, defending the homeland, deterring 
adversaries, supporting allies, and fostering innovation, SOCOM 
operates at a fast, but manageable pace.
    Since I last appeared, SOCOM service components effectively 
reduced the deployment tempo of our personnel, with the 
majority under the Secretary of Defense-directed deployment-to-
dwell ratio of 1:2. Our people and our formations are better 
than they have ever been, thriving under pressure, executing 
the toughest missions, and achieving success.
    Success, however, has carried a high price. In the past 10 
months, we suffered the loss of 20 special operations personnel 
from our formation in combat, with 144 wounded and injured. I 
will close recounting the words of one of our Gold Star mothers 
at the funeral of her son, Green Beret Staff Sergeant Aaron 
Rhett Butler from the 19th Special Forces Group, a National 
Guard noncommissioned officer killed in Afghanistan this past 
August. Aaron was a four-time Utah State wrestling champion in 
high school, and the seventh of eight children. In the midst of 
her grief, Mrs. Butler looked me straight in the eye and said, 
``Stay on this. Finish it.'' Her resolve resonated with me, and 
reflects the extraordinary support we enjoy from our service 
member families. I know it resonates with this committee as 
well.
    SOCOM and our special operations forces are relentlessly 
focused on winning our current fights and preparing for all 
future threats facing our Nation. Again, thank you for your 
trust and support for this command and our special operations 
forces.
    [The prepared statement of General Thomas can be found in 
the Appendix on page 39.]
    Ms. Stefanik. Thank you, General Thomas. My first question, 
I want to relate it back to my opening statement. This 
subcommittee is charged with looking 5, 10, 20 years ahead. And 
I am concerned that we must have a sustainable CT 
[counterterrorism] and countering violent extremism strategy. 
We have made significant tactical gains, such as recent 
advances in Syria, Libya, and even Somalia, but only, in some 
cases, to see those hard-earned gains rolled back because we 
lack a larger strategy and diplomatic approach that could 
realize the tactical gains. How do you think we ensure that we 
have a strategy to build in the long term upon tactical 
successes? And that question is for both of you.
    Secretary West. Why don't I talk about the strategic 
aspects, and Tony, you can talk operations. Chairwoman, I think 
you have teased out the basic question that resides in the NDS, 
and that is as we shift focus, how do we sustain other efforts, 
especially if we have to become more austere in certain 
buckets, while maintaining, in my judgment, what is a best-in-
class, competitive advantage that General Thomas' team has 
built in counterterror?
    When I look across the military missions, I am not sure if 
there is a bigger gap. Coming from the private sector, I think 
what is needed is a resource allocation model. That is underway 
at the Department. Secretary Mattis has begun to task people to 
look at an investment philosophy. Some of the things that have 
worked, for instance, have been partner forces. So some basic 
questions would be: What are the chances of success? The size 
of the spend? Can we turn it over to GP [General Purpose]? And 
then to your much larger question, how do we build an overall 
thesis to get us to where we want to be ahead 5 or 10 years 
from now?
    Ms. Stefanik. General Thomas.
    General Thomas. Chairwoman, I think I would speak 
comfortably for the Secretary when he would agree with your 
analysis that tactics without strategy, to quote Sun Tzu, is 
the noise before defeat. I think you emphasize, and I believe, 
again, the Secretary and I would both reinforce your point, 
that concomitant diplomatic efforts, with our operational 
endeavors, are critical to finishing any one of these fights. 
And I would specifically point right now to both Afghanistan, 
where we are surging assets to enable the discussions for 
reconciliation, which must happen to have final and sustainable 
security there. Obviously needs a very fervent diplomatic 
effort.
    And in Syria right now, you mentioned earlier we are in a 
phase in the moment of the physical defeat of the caliphate, 
that we are endeavoring to provide stability to those 
ungoverned spaces and to those people where we have conducted 
operations. And that is a critical role that has to come 
through in conjunction with our military operations.
    Ms. Stefanik. My next question also relates to my opening 
statement. General Thomas, what can this committee do to reduce 
your dependency on OCO [overseas contingency operations]?
    General Thomas. Chairwoman, luckily, the current funding 
bill as it stands makes the OCO point moot for these next 2 
years, as I understand it. It is only a respite, though. And so 
I am glad that you are emphasizing that, that currently, if we 
were to highlight the current dependency on OCO, it is one 
third of our budget, you know, a huge dependency, and I am 
hopeful in the out-years, that we are able to recognize that 
these are lasting capabilities in SOCOM, and your SOCOM that 
you all want to maintain, and, therefore, drive it from OCO 
into base [budget]. So I am hoping for that consideration in 
the out-years. Luckily again, I think the current budget 
addresses that.
    Ms. Stefanik. Secretary West, did you want to add, given 
your oversight role?
    Secretary West. Chairwoman, I would just say coming in 
again from the private sector, I think OCO, it seems to me, I 
am not an expert, but it has the potential to build some very 
bad habits in terms of planning. I need to dig into it more. I 
would be happy to get back to you with an assessment. I think 
it will take me about 3 months. But the potential is there to 
really hem what you talked about, which is beginning to 
transform the force out 5 or 10 years.
    [The information referred to can be found in the Appendix 
on page 65.]
    Ms. Stefanik. And then my last question for the first round 
is we have seen the recent incident of overseas fitness 
trackers that telegraphed the positions and data of our service 
men and women. And that reminds us, of course, of the Internet 
of Things continues to change the game. Can you talk about how 
this is impacting your approach to force protection? What did 
we learn from the most recent incident, and what changes have 
been made? And in a broader sense, how concerned are you, in 
general, about the proliferation of more than 50 billion 
interconnected sensors and devices? General Thomas.
    General Thomas. Chairwoman, I think we all had that ``duh'' 
kind of epiphany moment that the vulnerability that available 
databases like that can present to the force. So clearly, it 
was an immediate vulnerability that the Department was aware 
of, and that we are scrambling to make sure we have the right 
sort of policy in place. I think it also highlights the other 
aspect, though, the ability to manipulate and leverage data 
that we are also interested in becoming much better in the 
future.
    So this was an eye-opening exposure, and a vulnerability to 
the Department for a new and developmental technology. But we 
are endeavoring to, one, protect what we need to in terms of 
available data, but also be able to leverage it operationally 
as well.
    Ms. Stefanik. I now recognize Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair. Again, thanks to both 
of our witnesses for your testimony. General Thomas, as I 
mentioned in my opening statement, there continues to be a high 
demand for reliance on--increasing reliance on special 
operations forces by combatant commanders. And I believe, as I 
know you do as well, they have to be prudent in employment of 
the force to maintain readiness for current and future 
missions, as well as preserve strategic operations for our 
Nation.
    So I know that this issue has also been on the forefront of 
your mind, as we have discussed in our one-on-one meetings. And 
you have been vocal that SOF cannot be the solution to every 
problem. So can you please describe your efforts to ensure the 
force is employed to meet combatant commander requirements, 
while also addressing what I would call overreliance on SOF?
    And some concrete examples for the committee to demonstrate 
how you've pushed back in cases where it wouldn't be 
appropriate for SOF, and regular forces could take over the 
mission would be helpful. In addition to resource requirements, 
how can Congress be helpful on this front as well?
    General Thomas. Congressman, thanks for the question, and 
thanks for the time yesterday to catch up with you. As you 
implied, and certainly as we have looked back over the years, 
SOF has arguably been applied very liberally, with a dearth of 
strategy and with a dearth of a real vision towards end state. 
So while we are out in many locations, the reality is it is 
hard to measure. You know, what does the end state, what does 
sustainable security look like? There is significant oversight 
from the Department, specifically from my boss, and certainly 
with the Assistant Secretary, to ensure that we are prioritized 
in terms of our placement and our operations now and into the 
future. And I would tell you that the strategic context is 
coming together more coherently every day under the leadership 
of Secretary Mattis.
    So I am somewhat confident that we are getting that 
external pressure while we prioritize internally to the limited 
assets we have. If you were to ask me are we able to satisfy 
all the geographic combatant commanders' requirements, I would 
tell you no, we routinely tell geographic combatant commanders 
that we have no more to hand out at this time.
    In priority, we have given them out to the respective six 
geographic combatant commanders. And it forces consideration 
for other forces, whether they are international partners, 
conventional forces, or other capabilities that should be 
brought to bear. So it is a good, vibrant, professional 
discussion that, I think, is getting more in balance all the 
time.
    Mr. Langevin. Thank you. So the Army's first security force 
assistance brigade is going to deploy to Afghanistan this 
spring. Can you tell us how will that deployment to Afghanistan 
alleviate some of the burden on SOF? And what is your 
understanding of how future security force assistance brigade 
deployments will contribute to alleviating some of the burden 
on SOF?
    General Thomas. Yes, Congressman. Specifically, the 
security force assistance brigades [SFAB] that the Army has 
stood up in very rapid order--I give them a lot of credit for 
creating capability in little to no time--are specifically 
focused on the conventional Afghan kandaks, their conventional 
units in the field, which, right now, are not partnered, unlike 
our Afghan special operations force partners, who do have U.S. 
special forces and other allied forces aligned with them, and 
have been historically with them. So their specific purpose is 
for the conventional side. However, we are deriving some 
benefit from the creation of the SFAB as well.
    In fact, I talked to our commander on the ground as 
recently as 2 days ago. We specifically will get a few of these 
teams that will thicken our formation at the training base as 
well as accompany some of our new partnered force, some of the 
mobile forces to allow us to be more effective in the field. We 
are anxious for them to get to Afghanistan, and looking forward 
to the benefit they will provide to us.
    Mr. Langevin. I am sure. I hope that achieves the goal we 
intend. So as a result of section 1637 of the National Defense 
Authorization Act for FY 2018, the Secretary of Defense has 
directed USSOCOM to establish a centralized capability for 
military information support operations, global messaging, and 
counter-messaging. The FY 2019 request includes $18 million to 
that end. So touch on this. How will USSOCOM fulfill its roles 
and responsibilities in this capacity to better understand, 
enable, and enhance the Department of Defense approach for 
maximum effects from the tactical to the strategic?
    And General Thomas, how will USSOCOM contribute to a whole-
of-government effort in this space? And what agencies will you 
coordinate with? And lastly, Secretary West, have you received 
any guidance or participated in efforts related to section 1637 
of the FY 2018 NDAA that provides for the integration of 
strategic information operations and cyber-enabled information 
operations?
    General Thomas. Congressman, very quickly, and I will turn 
to the Assistant Secretary, the timing on this initiative from 
Congress couldn't be any better. Internally to SOCOM, we were 
already endeavoring to try and establish better capability at 
the headquarters level, in addition to our proponent--we are 
the proponent for military information support operations. So 
we produce and provided the field great capability in that 
regard. But we really did not have the requisite operational 
and potentially national level capabilities.
    So we are intent on providing that. I would offer to you 
form follows function. And so right now, we are in discussions 
with the Department in terms of what functions they endeavor, 
or they see us fulfilling. Our form, our structure will follow 
from that. But again, we are appreciative of the resourcing 
that is involved.
    We are already very, very well integrated with the Global 
Engagement Center. So you talked about other partners, that is 
the lead for the country and the State Department. We are well 
integrated with them, and we are hoping to enhance that 
relationship with them going forward, among other agencies.
    Mr. Langevin. Thank you.
    Secretary West. Sir, the SO/LIC office is tasked with 
helping to designate a senior DOD official. We are in the 
process of making recommendations right now to the Secretary. I 
would say from the strategic level, you asked what other 
agencies are involved. What is very important is that we get 
the message right, that it is a culturally attuned message so 
that no matter what we may gin up in the United States DOD, I 
think we need some country expertise. And then looking broadly 
at the formula of these types of operations, we need a partner 
force that begins to translate this with whom we have the same 
political end goals.
    Mr. Langevin. Thank you both. I yield back.
    Ms. Stefanik. Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chair. And I would like to 
thank both members of the panel for being here. It is really 
reassuring on behalf of American families, your capabilities 
and competence, and in particular, to know that you are facing 
challenges from North Africa to the Philippines. And it is just 
encouraging to see your dedication and service. And General 
Thomas, a top priority is supporting the counterpropaganda 
mission and ensuring that the appropriate infrastructure is in 
place to guarantee success.
    In the FY 2017 NDAA, Congress expanded the mission of the 
Global Engagement Center [GEC] to include counter-state 
propaganda and disinformation efforts. What is the level of the 
collaboration between SOCOM and the Global Engagement Center? 
Do you believe there are sufficient opportunities for the 
cooperation and exchange of best practices? Is there anything 
Congress can do to further support this mission?
    General Thomas. Thanks, Congressman, and thanks for the 
time to link up with you earlier. As I mentioned earlier, and 
kind of to reinforce the point that we all know that 
relationships matter, we have had and enjoyed a very good 
preexisting relationship with the Global Engagement Center, 
primarily with a counterterrorism focus. As their charter has 
expanded, we are intent on being integrated with all their 
additional efforts and additional focus going forward. The 
Assistant Secretary talked about the NDS and the intent to 
compete short of conflict, in both a contact force and a blunt 
force construct as it is played out in the NDS.
    I think there are extraordinary opportunities. You 
mentioned propaganda. I don't know that I would term it as 
propaganda as much as competing in the information space 
against the extraordinary amount of disinformation, especially 
on the regional, kind of hegemonic level that we do need to 
counter in some way, shape, or form. And again, I think we will 
have the opportunity to do that going forward, and we look 
forward to it.
    Secretary West. Sir, let me just add that now that we have 
a budget, we have agreed with the State Department to launch a 
$15 million pilot program alongside the GEC. And the basic goal 
between DOD and State is to align to the NDS.
    Mr. Wilson. As an indication of how important what you are 
doing, we have the Chairman of the Armed Services Committee 
here with us, Mac Thornberry. So whatever we can do in 
Congress, the leadership certainly is very attentive. And 
Secretary West and General Thomas, another significant concern 
is the high operational tempo that has been placed on SOCOM for 
a significant period of time. Could you describe the impact of 
programs like the Preservation of the Force and Family [POTFF] 
have had on the morale of soldiers and their families? And 
also, describe efforts to focus on mental health services being 
made available to service members.
    General Thomas. Congressman, first and foremost, I am very 
grateful that several of my predecessors had the vision to see 
that this was going to be a protracted effort, both the current 
CT fight and really the other threats that have loomed for the 
country. And in seeing with that longer vision, they realized 
that we did not have the organic capability to sustain the 
force at the kind of tempo that we have been carrying now for a 
decade and a half. So in coordination with Congress, they 
endeavored to get the necessary funding to provide the 
Preservation of the Force and Family capabilities, which I 
would offer is, most importantly, the people that are involved, 
you know, the physical therapists, the social workers, the 
religious support folks, the psychiatrists--psychologists 
rather. Those are really the difference that is being made at 
the local level and our ability to sustain it. So again, thanks 
to my predecessors for setting that in motion. It is paying 
huge rewards for us in terms of sustaining the force.
    Mr. Wilson. And has there been an impact on recruitment 
with the emphasis on these programs?
    General Thomas. I would offer more in sustainment. So 
recruitment, they may not know it ahead of time, but when 
service members and their families become part of our force, 
and it is probably most palpable every time I go to Walter Reed 
and I am able to talk to service members and their families on 
the back side in terms of the care coalition aspects that we 
are able to provide for them, that they realize there is a 
distinct difference. One, we are encouraging service members, 
regardless of their injury, their illness, to stay in the 
force. And if they want to, we find ways to do that. And we are 
also able to sustain their families so they can, you know, work 
with us for the long haul. And again, it is almost 
indescribably powerful for our formation.
    Mr. Wilson. And I know that the facilities that you have 
developed have to--if a young person sees the world-class 
facilities that are being provided, it has just got to 
encourage people to remain in the service, but also recruiting. 
So it is just so meaningful. And just again, thank both of you 
for your service, and I yield back.
    Ms. Stefanik. Mrs. Murphy.
    Mrs. Murphy. Mr. West, General Thomas, thank you so much 
for being here today. And thank you, General Thomas, for taking 
a little time out of your schedule this morning to connect. In 
a prior life, I had the real honor to work for ASD SO/LIC in 
the SOCT [Special Operations & Combatting Terrorism] 
Directorate, and I have a deep appreciation for the 
capabilities that SOF brings to our national security. So thank 
you for all that you do. You talked a little bit about this in 
your opening remarks. Just given the new National Defense 
Strategy refocuses on great power conflict, will SOCOM seek to 
transition away from CVE [countering violent extremism] to 
other roles that more directly counter the military 
capabilities of peer competitors? And if so, what does that 
look like?
    Secretary West. Well, from one rookie to a veteran, I would 
say, as I said in the opening, that is a key question. I think, 
first of all, what is important, is sustaining the advantage 
that SOCOM has built up in countering VEO [violent extremist 
organizations]. But then along with many other programs and 
missions, we do have to become more austere. And so hard 
decisions have to be made in terms of when you begin to look 
from--essentially move from, I will use a start-up as an 
example, and you really begin to ask or assess what are 
diminishing returns, which are inevitable, against your spend.
    So, I think one of my basic tasks will be to work alongside 
General Thomas on the business administrative aspect of SOCOM. 
And part of that is just how he allocates his dollars and his 
mission prioritization.
    General Thomas. Congresswoman, I would like to think we 
anticipated the NDS a little bit in regards to one specific 
peer competitor, and that was at the invitation of our European 
allies, folks who we worked with in Afghanistan and Iraq, we 
were invited several years ago to join them in enhancing their 
capabilities in Eastern Europe. So we have had a multiyear 
effort there that has already borne some pretty serious 
dividends. I think we have already flexed in that regard. It 
opened our eyes to some capabilities that we were probably 
deficient in that we needed to enhance above and beyond the 
great capabilities we had developed for countering violent 
extremism. But we are an organization in transformation 
constantly, and I would like to think that we are keeping pace 
with where the NDS wants us to go.
    Mrs. Murphy. Great. And I look forward to continuing the 
conversation as you make that transition. You know I have had 
the pleasure of touring the SOFWERX a few times, and I am so 
impressed by it, I even brought colleagues down to take a peek 
at what you have got going on there. It is your business and 
technology incubator in downtown Tampa. I am just so very 
impressed every time I visit at how SOCOM uses flexible 
alternative contracting instruments like OTAs [other 
transaction authority] to such great effect. And I think when 
we think about some of the challenges that we are looking to 
address, having that ability to sort of hotwire the system a 
little bit and get into more rapid acquisitions is really 
important. And I have been impressed with your ability to do 
that.
    When I visited SOCOM headquarters late last year, I heard 
that your acting acquisition officer was detailed to CYBERCOM 
[U.S. Cyber Command] to help stand up their acquisition 
authority. Can you talk a little bit about SOCOM and CYBERCOM's 
relationship, particularly as it relates to sharing best 
practices in acquisitions?
    General Thomas. Congressman, first of all, thanks for your 
interest in SOFWERX. And if I could actually go back to a 
question that the chairwoman asked about RDT&E [research, 
development, test, and evaluation], because truthfully, there 
was an internal tension in our command on, are we putting 
sufficient money there? And so it is very prominent. But I 
would offer platforms like SOFWERX, other people's money, our 
ability to leverage academia, and then truthfully, as we are 
working with the Department, we had Ellen Lord down recently, 
and it struck me as she talks about $5 trillion worth of 
programs over the FYDP [Future Years Defense Program], that 
SOCOM needs to do a better job of leveraging the heft of the 
Department as it is swinging larger RDT&E dollars. So we are 
focused on it, but there are a couple different platforms.
    SOFWERX is unique, as you described. And we have been able 
to parlay it. Originally, I don't think it was seen as 
something that was either scalable or exportable, and it has 
become both. Scalable in terms of how it is assisting other 
services. The Army has used it to look at ground mobility 
vehicles, weapons, things like that. On our RDT&E back, which, 
again, it is a great cooperative effort. Exportable in terms of 
you mentioned CYBERCOM. It is also exportable to our foreign 
partners. We are able to share much more extensively right now. 
On your specific point of the relationship with CYBERCOM, you 
know, Admiral Mike Rogers and I have had kind of a historic 
relationship, very positive one from growing up together. But 
he encouraged us at Special Operations to leverage cyber in 
everything we are doing. He knows that SOCOM has an 
attractiveness in terms of an operational approach that is not 
irresistible, but it certainly--it forces considerations. So 
cyber operations is integral to everything we do. And we 
continue to enhance the relationship with them, most recently, 
in trying to help them with their acquisition process.
    Ms. Stefanik. Time has expired. Mr. Hice.
    Mr. Hice. Thank you, Madam Chair. General Thomas, you 
mentioned a while ago the Preservation of the Force and Family. 
I am very much interested in that. Of course, there is so much 
stress on our warriors and their families. I think this is a 
great program that now is 5 years old. You mentioned it is 
dealing with physical, mental, social, and spiritual well-
being. And that program expires this year, although a request 
for proposal has just come out this week. To begin, after 5 
years now what have you learned from this program? And does the 
new request, what kind of changes are being proposed?
    General Thomas. Congressman, I think as a learning 
organization, with the establishment of the Preservation of the 
Force and Family program, we really hinged it on four pillars: 
psychological, spiritual, social, and human performance 
aspects. And so, we have been able to refine that over time as 
much driven by our operators, as most of our successes are, 
where they are able to refine both the requirements, but also, 
the ability to sustain the force over time.
    So again, it builds in resilience on the front end. And as 
we employ this force, and then parallel to that is our care 
coalition, which enables us to conduct an incredibly thorough 
Warrior Care Program for those who unfortunately become 
wounded, ill, or injured. So, in parallel, both those programs 
are keys to our sustainment going forward. We are continuing 
looking to how we can enhance that program. So I probably can 
come back to you with some more specifics. But it is an 
iterative program inside of what we have been doing very 
capably for the last couple of years.
    Mr. Hice. So are you aware of any significant changes from 
what is being proposed now from 5 years ago?
    General Thomas. I don't think significant changes. I think 
probably a point that I should bring out to you is, again, 
imitation being the finest form of flattery, the other services 
are going to school on what we are doing and trying to 
implement it. And we are trying to share that as aggressively 
as possible. So I think we are onto something that is positive 
for not only our force, but for the larger Department. And I 
will get back to you on some specifics that we are considering.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Hice. Thank you. Mr. West.
    Secretary West. I was just going to say, sir, not to be a 
force of negativity, but part of my job will be and is to 
scrutinize P-11 programs, or SOF-peculiar programs like this, 
where the services have something that looks like it, but not 
quite. I usually dive into the statistics. And the statistics I 
have seen so far are really good. I am sure we will get into 
the results of the cultural survey that was commissioned about 
3 months ago here. But my initial cut at the data says that 
something is working well, and I would have to point to this 
program as among, say, of the flagship programs that I would 
think has a big impact.
    Mr. Hice. That is really encouraging to hear. Would you 
say, while you are up here, that between the four pillars that 
they are fairly well balanced, or is there an imbalance and 
emphasis in one area over the other?
    Secretary West. I don't know, sir. I don't know, sir.
    Mr. Hice. General, would you?
    General Thomas. Congressman, I think it is pretty balanced. 
Where we are I think endeavoring to develop, because we are 
learning, is in the human performance domain. I think there is 
a lot of uncharted ground there. We have sports teams going to 
school on us, professional teams going to school on what we are 
learning. So I think it is indicative of an environment where 
there is some real opportunities, but we haven't developed them 
yet.
    Mr. Hice. I think it is really encouraging that this 
program is even here. The importance of taking care of these 
warriors and their families is just huge. And hats off to you 
for taking this seriously, and for doing a good job, and the 
fact that statistically, there are evidence to back up that 
this is succeeding in what its mission and purpose is. It is 
very encouraging. So I thank you very much for that. And I 
yield back.
    Ms. Stefanik. Thank you, Mr. Hice. We will now go to the 
second round of questions. General Thomas, you touched upon 
this in response to Mrs. Murphy's question, but as I mentioned 
in my opening statement, we know that our near-peer adversaries 
are investing in the development of AI, synthetic biology, 
quantum computing. And again, we are the Emerging Threats 
Subcommittee, so we are looking to the future to ensure that we 
maintain the edge when it comes to these technological tools. 
With that said, can you describe, and you said there was back 
and forth within SOCOM, why the budget request decreases our 
R&D investments for the second year in a row?
    General Thomas. Chairwoman, I probably didn't address that 
accurately in that while there is tension for where and how we 
are spending our money, I am comfortable that we are 
sufficiently immersed in R&D efforts with both our allotted 
money, other people's money, and other platforms. So I can 
probably give you a more comprehensive laydown where I guess 
the proof of the point is, I can't tell you an area that I 
think we are lacking in terms of spending authority to pursue 
RDT&E.
    On the specifics of machine learning, that is a great 
example, because there is probably nothing I am more passionate 
about right now than the opportunities that SOCOM has to 
leverage machine learning to an extraordinary level. We had the 
innovation group come to us with Admiral McRaven about a year 
and a half ago, and some senior folks from Google and Alphabet 
gave us rave remarks for our people, our ability to prototype, 
and then gave us less than satisfactory marks for machine 
learning. And we took it as a tasker.
    And since that time, we have poured a lot of energy, a lot 
of focus, more importantly, practical applications into 
everything we are doing. I devoured a book, ``Machine, 
Platform, Crowd,'' not too long ago by McAfee from up at MIT 
[Massachusetts Institute of Technology], that challenges 
corporations, but apropos to us, at every level and every mark, 
why you aren't embracing machine learning. And I can tell you 
that is the ethos of our command right now as we are going 
forward. I really hope that we not only will we improve our own 
capabilities, but that it will be scalable to the Department as 
kind of an exemplar for what we can do.
    Ms. Stefanik. So are we leveraging DARPA [Defense Advanced 
Research Projects Agency] and service R&D efforts? In what 
areas are they helping you the most?
    General Thomas. Ma'am, I would probably be hard-pressed 
right now to tell you the specifics, but the answer is yes. 
Anybody and everybody who--I couch this free money, that is not 
meant to be kind of pejorative, it is folks that are doing 
similar lines of work or similar interested areas, we are 
investing in. I think that the beauty of it and where it plays 
to our maybe us not having the RDT&E, is we provide platform, 
we provide the forum for applications of a lot of these 
prototypical efforts that I think creates kind of a symbiotic 
marriage of opportunity there.
    Ms. Stefanik. And General Thomas, in terms of countering 
unconventional warfare [UW] threats, are we closer to linking 
all of our tools and capabilities, such as conventional, 
unconventional, economic, cyber, intel, and IO [information 
operations] in an effort to counter adversarial threats such as 
Russia?
    General Thomas. Chairwoman, I would like to actually give 
you a few examples in the closed session afterwards, but the 
bottom line is yes. I think the unique approach of our joint 
task force, our inherent nature of who we are allows us to 
bring all those elements to bear in a coordinated, coherent 
fashion. So again, I will provide at least one very powerful 
vignette in the closed session, but we see and we leverage all 
those tools as part of what we do.
    Ms. Stefanik. Thank you for that, General Thomas. And 
before I recognize Mr. Langevin, I just wanted to follow up on 
Secretary West's comments regarding irregular warfare 
authority. Regarding section 1202 and the new unconventional 
warfare authority, I was pleased to see you commit to the 
delivery of the UW strategy in the opening statement, but I do 
want to emphasize for the record that without that strategy, 
there is no UW authority, which is why we have the 15-day 
notice and wait as well. So we look forward to talking about 
the strategy first before we move forward with the authority. 
And with that, I recognize Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair. Secretary West, 
section 922 of the FY 2017 NDAA focused on solidifying and 
strengthening the roles and responsibilities of the Assistant 
Secretary of Defense for Special Operations and Low-Intensity 
Conflict to effectively conduct internal oversight of, and 
advocacy on behalf of SOCOM. I know you are new, you are just 
days on the job, but from your standpoint right now initially, 
what is the status of the implementation of 922, and what is 
the status of the report on implementation of 922 required by 
section 1074 of the FY 2018 bill? And as you know, Congress has 
expressed concern about inadequate resources being provided to 
ASD SO/LIC to fill roles and responsibilities. What efforts are 
underway to define and resource SO/LIC?
    Secretary West. Congressman, let me take your second 
question first. We will turn in that report on time. Another 
report was just mentioned. I like to meet deadlines. To your 
first question, the first thing I did was study the history. I 
think pathfinding requires, you know, where you are coming from 
to figure out where you are going. It is clear this was almost 
a 30-year culminating point, 922 specifically. And I think it 
is very timely. In the backdrop of Secretary Mattis calling for 
business reform as one of his three pillars, I think this 
reinvigoration is long overdue.
    General Thomas has a really unique role in that he is a 
very busy COCOM [combatant command] commander with three 
separate global synchronization hats. And then now at $13.6 
billion, he and we now are heading a Fortune 500 enterprise. So 
on the business leadership front, I think the basic task is to 
institutionalize what SOCOM does very well and preserve its 
unique attributes. The chairwoman mentioned, for instance, 
DARPA. I think there are four or five other areas at DOD that 
looks very much like DARPA. So one of our tasks will be within 
the building to connect this thriving enterprise in Tampa Bay 
to the federation.
    Mr. Langevin. General Thomas, and both Secretary West, can 
you describe how 922 has shaped the relationship between SOCOM 
and SO/LIC? Any further comments on that? General Thomas, you 
want to comment?
    General Thomas. Congressman, as I mentioned in my preamble, 
we are embracing the 922 language as the natural evolution of 
the relationship between us and ASD SO/LIC. I have been 
interested in the specific language that places Assistant 
Secretary of Defense West in our chain of command to the 
Secretary for the man, train, and equip portfolio. And I am 
looking forward to developing the specific functions and 
interrelations there. But I think that will help us be better 
integrated with the Department going forward.
    Mr. Langevin. Thank you. General Thomas, in December you 
were quoted on the devastating effects Task Force Aries 
delivered when synchronized with other military and 
intelligence partners. Despite these types of operations, you 
mentioned that we are not fully where you would like to be with 
these capabilities. Can you please describe your cyber 
requirements? How is USSOCOM synchronizing and coordinating 
with U.S. Cyber Command? And do you find you have more policy 
and authority challenges or commanders who have difficulty 
integrating the capability in the cyber realm?
    General Thomas. Congressman, again, we enjoy an 
extraordinary and historic relationship with CYBERCOM. The 
level of support is almost indescribably powerful. When I 
mentioned and contrasted very successful operations there 
relative to areas that I think we can improve, it is really 
emphasizing that in the counter violent extremist mission set, 
we have been able to break ground and really be a pathfinder 
for new and developmental capabilities that I think need to be 
carried over to other mission sets, to other operational 
domains that I think Mike Rogers would agree, we need some 
iterations, we need some reps [representatives] in those 
environments, which we have had a good number in countering 
violent extremism, but I think they could be passed across, and 
we are trying to do that.
    Mr. Langevin. Very good. Thank you. And General Thomas, 
what is the situation with North Korea? How has that impacted 
the force? And is SOF prepared to respond to a crisis on the 
peninsula?
    General Thomas. Congressman, as part of the joint force, we 
are always endeavoring to be prepared for any and all 
contingencies. So suffice it to say, we are training, as we 
always have, to be prepared for that contingency, among others.
    Mr. Langevin. And I will probably have some follow-up on 
the closed session on that. With that, I yield back.
    Ms. Stefanik. Mr. Hice.
    Mr. Hice. Thank you, Madam Chair. At this time I have no 
further questions.
    Ms. Stefanik. Mrs. Murphy.
    Mrs. Murphy. Madam Chair, I will also reserve for the 
closed session.
    Ms. Stefanik. Thank you very much. We will now move into 
closed session.
    [Whereupon, at 3:00 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================




                            A P P E N D I X

                           February 15, 2018
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 15, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 15, 2018

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. STEFANIK

    Secretary West. In the FY 2019 budget rollout, DOD indicated that 
the FY 2020 DOD budget and future plan are to reduce reliance on OCO 
significantly. USSOCOM will be a part of that shift from OCO to the 
base budget. Congressional support is critical in shifting OCO to the 
base budget. OCO constitutes one-third of USSOCOM's FY 2019 budget 
request. At this time, we believe that approximately 90 percent of 
USSOCOM's requested OCO is enduring.
    Increasing base funding will result in more effective 
implementation of readiness and modernization efforts over the long 
term. For example, it will improve procurement of warfighter equipment 
(e.g., special operations forces (SOF) fixed- and rotary-wing aircraft 
modernization; SOF maritime undersea and surface capabilities; 
intelligence, surveillance, and reconnaissance (ISR); and tactical 
vehicle modernization). In terms of readiness, it will improve SOF 
combat units' ability to plan and implement training in a reliable and 
consistent manner.   [See page 9.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. HICE
    General Thomas. The command conducted extensive market research in 
order to ensure we have captured both lessons learned from the current 
POTFF programs and contract, but also from other major source 
selections the command has recently executed and modified the RFP 
accordingly. Some of the most significant changes are outlined below. 
We experienced performance issues and turnover related to the disparate 
salaries offered for the same labor categories and at times within the 
same geographic locations by the various companies supporting these 
requirements. We did not anticipate that some subcontractors would pay 
20%-30% less annually than others. Additionally, direct salaries have 
in some instances limited our ability to fill positions, either because 
they are much lower than those offered by other agencies or too low for 
incentivizing performance in remoter locations such as Cannon AFB, NM. 
Therefore, the RFP includes additional requirements for a more in-depth 
price analysis focused on the total direct compensation offered to 
employees, regardless of which prime or subcontractor is providing the 
employee in order to ensure commensurate compensation packages are 
being offered across all team members (both prime and subcontractors) 
and the surrounding labor markets, as well as ensuring they will have 
the ability to retain the current incumbent personnel IAW FAR provision 
52.222-46. Failure to effectively manage subcontractors to ensure 
consistency in the support across the entire POTFF program has caused 
several performance challenges. Therefore, the RFP and the Government 
Quality Assurance and oversight processes include a greater emphasis on 
subcontract management and holding the prime contractor accountable for 
their subcontractor performance. This includes such things as requiring 
offerors to address how they will ensure the proper flow down of all 
contract requirements, handle subcontractors who are performing poorly, 
or those team members that are unable to effectively retain or recruit 
personnel. Moreover, offerors will be required to ensure processes and 
procedures are standardized across their team as well as describe how 
their retention plans will ensure the ability to maintain the required 
technical expertise and allow for developmental growth/career 
progression. Five years ago, the RFP had a larger focus on ensuring the 
companies (holistically across their proposed team) demonstrated 
extensive knowledge of both the various Special Operations units being 
supported and the POTFF programs (i.e. both Human Performance Programs 
and the Psychological Resiliency). However, we found that although they 
should still have some understanding of the SOF non-traditional 
training environment, it is not as essential to have companies who are 
``experts'' in the POTFF domains or SOF units, but rather just 
expertise resident in the key personnel proposed to perform the 
recruiting and vetting of the service providers that understand the 
qualifications (i.e. having an Operational psychologist background). 
Additionally, companies that have demonstrated experience in the human 
resource-like functions (recruiting, managing credentials, etc.) 
Therefore, the RFP includes language that focuses more on the 
recruitment and retention of personnel rather than the knowledge of 
existing programs. Offerors are now required to provide labor rates for 
all 21 labor categories across all 26 geographical locations in order 
to avoid delays and the possibility of paying unreasonably high labor 
rates once we are in a sole source environment post award. The 
transition requirements were very different 5 years ago when we were 
first establishing the ``enterprise'' contract. The number of current 
incumbent personnel from existing contracts that were being 
consolidated into the enterprise was much lower than the number of 
incumbent personnel currently working under the current POTFF contract 
(approx. 346). Therefore, the RFP contains a greater emphasis on 
transition and ensuring the offeror's plan demonstrates an 
understanding of and the ability to retain those critical ``No Fail'' 
incumbent positions (identified within PWS, Appendix 2) and how they 
will mitigate the risks associated with the loss of those existing 
relationships that have been built over time within the components. The 
revised Performance Work Statement contains revised qualifications for 
some existing labor categories, the removal of one labor category and 
five new labor categories that were identified by the component 
commands and to support emerging POTFF initiatives. The new categories 
include the following:
    <bullet>  Neuropsychologist: To support SOF neurocognitive 
psychological baselining efforts
    <bullet>  Data Scientist I & II: To replace the baccalaureate 
trained ``Data Analyst'' labor category on the previous POTFF contract. 
The POTFF requires a higher level of analytic capability than 
previously provided. The Data Scientists I & II require a masters 
degree and Ph.D. respectively.
    <bullet>  Psychometrist: To support SOF neurocognitive and 
psychological baselining, and assessment/selection activities.
    <bullet>  Psychiatric Nurse Practitioner: To address specific gaps 
in access to care. Primarily for medication/medical management.
    <bullet>  Senior Strength & Conditioning Specialist: To provide 
greater responsiveness to a units' requirements.
    [See page 15.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 15, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. General Thomas, you mentioned SOCOM's continued 
coordination with embassies in countries and regions where SOCOM is 
present. How might cuts to FY19 State Department funding impact SOCOM's 
missions around the globe? How would an increase in defense funding 
with a simultaneous decrease in diplomacy funding affect the success of 
these missions in FY19/20 and in fiscal years to come?
    General Thomas. The SOCOM position is that there will be no direct 
impact to SOCOM's ability to carry out missions around the globe. 
However, if Embassy staffing is impacted by a lack of funding, some of 
SOCOM's specific missions could be indirectly and negatively impacted 
on a case-by-case basis. Politically sensitive missions in certain host 
nations require embassy oversight and coordination. A shortfall in 
staffing could slow or even disrupt execution. Additionally, there is a 
potential that staffing shortfalls could lead to greater DOS/USEMB 
reliance on SOCOM elements that work within embassies and have 
operational funding like Military Information Support Teams (MISTs) and 
Civilian/Military Support Elements (CMSEs). A reduction of embassy 
staff could potentially degrade or make it more difficult to coordinate 
w/host nation personnel for proposed SOF activities (e.g. Joint 
Combined Exercise Training (JCET) and Counter-Narcotics Training (CNT) 
events). Additionally, any cuts to Title 22 funding overseen by the 
State Department may negatively impact host nation willingness and 
ability to cooperate with SOCOM, as well as degrade future performance 
of host nation forces.'' Strategically, any diminution in the U.S. 
government's ability to drive diplomatic solutions to today's problems, 
due to decreased staff, funding, programs, will likely mean conflicts 
and the conditions that lead to conflict will endure, and SOCOM's ops 
tempo and deployments will be affected.
    Ms. Speier. General Thomas, USSOCOM continues to use ``live tissue 
training,'' which uses live animals for teaching combat medics, a 
practice abandoned by virtually every U.S. hospital and medical school 
due to its high cost and the rise of more effective simulators and 
virtual reality for training. How much did SOCOM spend on live tissue 
training in each of the last five fiscal years? How much does SOCOM 
intend to spend on this training in FY18? How many animals were killed 
for SOCOM's live tissue training exercises in the past five fiscal 
years? To what extent has SOCOM evaluated the long-term cost savings 
that would result from switching to simulators for medical training? 
What was the finding of this evaluation?
    General Thomas. A single funding breakdown solely for live tissue 
training (LTT) is not available. USSOCOM does not conduct or fund live 
tissue training as a separate activity from Medical Readiness Training. 
(Medical Readiness Training, as defined in DODI 1322.24, includes all 
training for personnel, medical or non-medical, to treat combat wounds 
and injuries; has both initial and sustainment requirements.) The 
resources used to conduct LTT are the same facilities, ranges, 
instructors, support personnel, vehicles, equipment, and supply items 
necessary to conduct non-animal based medical readiness training. These 
resources are used throughout the ``crawl, walk, run'' progression of 
medical readiness training, of which LTT is a small, but critically 
important component. The following numbers represent the number of live 
animal models used by USSOCOM personnel for the years that documents 
are maintained. All activities are conducted in accordance with animal 
welfare regulations and policies, approved by an Institutional Animal 
Care and Use Committee (IACUC), and use humane euthanasia per the 
American Veterinary Medical Association (AVMA) Guidelines for the 
euthanasia of animals:
    FY2017: animals used = 5,244; personnel trained = 7,261
    FY2016: animals = 6,428; personnel trained = 9,823 (note: includes 
Survival, Evasion, Resistance, and Escape (SERE) training and animals 
used in field training)
    FY2015: animals = 6,469; personnel trained = 9,925 (note: includes 
SERE training and animals used in field training)
    Note: DODI 3216.01, Use of Animals in DOD Programs, directs animal 
use records be retained for three years beyond the end of the RDT&E or 
training event.
    Since 2015, USSOCOM has actively pursued high-fidelity, medical 
simulation and virtual reality training technologies through our annual 
broad agency announcements and technical experimentation events. 
Additionally, USSOCOM has worked with the DOD Program Executive 
Officer--Simulation, Training, and Instrumentation (Joint Program 
Manager--Medical Modeling & Simulation) and the Defense Health Agency's 
(DHA) Joint Program Committee (JPC)-1 in an effort to develop and 
employ the most advanced medical modeling and simulation technologies 
available. The following figures represent the DOD Science and 
Technology Medical Simulation investment portfolio provided by the 
Director, JPC-1 in reference to the 14 Feb 2018 HASC briefing:
    FY12--$44.3M; FY13--$20.0M; FY14--$16.8M; FY15--$20.5M; FY16--
$24.0M;
    FY17--$23.5M; FY18--$20.0M; FY19--$28.0M (projected)
    Many of the currently available medical simulation tools are the 
products of Department of Defense investments (e.g., MATT Series 1500 
Trauma Trainer, AirwayPlus Lifecast (APL) Upper Torso Trainer (Kforce 
Government Solutions, Inc.), and the TraumaManSystem (Simulab 
Corporation)).
    USSOCOM will continue to support the Department's efforts to move 
towards training simulator technologies where a synthetic patient model 
could fully replace the use of animals in USSOCOM's combat casualty 
care training curricula.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Secretary West, I would like to discuss some of your 
efforts in information operations. Specifically, what I am concerned 
about is the dispersion of extremist elements from the Middle East as 
our military efforts against ISIS and al-Qaida continue to be 
successful. Many of these individuals are fleeing to Europe, Africa and 
Central Asia and attempting to reconstitute operations in those areas. 
Part of reconstituting operations includes disseminating extremist 
propaganda and attempting to radicalize and recruit locals in those 
areas. Are you concerned about this? What are we doing to establish 
information operations in these areas to counter the propaganda and 
recruitment efforts of extremist organizations? Is this enough?
    I am particularly concerned about Africa and I feel that you must 
have the capability to rapidly establish information operations to 
counter threats as they arise. To ensure that approaches and messages 
are appropriate to the varied languages and cultures in areas of Africa 
targeted by extremists, effective information operations should 
leverage the unique abilities of local nationals to develop locally 
tailored platforms and messages. SOCOM has leveraged such a model with 
significant success, resulting in message dissemination that undermines 
extremist activities and messages within hours, not days. Integral to 
this model is a monitoring and evaluation system that allows SOCOM to 
closely, and in near real time, monitor the messages themselves, and 
their impact. What do you need to replicate this model in other 
operations?
    In your opinion, what, if any, changes to authorities might help 
you conduct more effective information operations?
    Secretary West. The Department of Defense (DOD) remains concerned 
about violent extremist organizations' efforts to propagandize, 
radicalize, and recruit in Europe, Africa, and Central Asia as we 
militarily defeat ISIS and al-Qaeda. DOD has already been conducting 
Military Information Support Operations (MISO) to counter 
radicalization and recruitment in those areas either directly or 
working by, with, and through our allies and partners. The Secretary of 
Defense recently directed U.S. Special Operations Command (USSOCOM) to 
consolidate DOD's MISO web operations into a global operating model in 
support of the Geographic Combatant Commands to expand the competitive 
space against our adversaries in contested zones. USSOCOM will leverage 
its unique abilities and previous lessons learned as DOD develops the 
implementation plan for this effort. The DOD has sufficient statutory 
authority to conduct information operations.
    Mr. Wilson. General Thomas, it seems to me that rapid response is 
especially important in spaces where violent extremists, Russians, and 
other foreign actors are able to influence the information environment 
much more quickly than we are. I have taken note of an information 
operations model that SOCOM is leveraging that has been particularly 
effective. It includes training and otherwise enabling trusted local 
nationals--who fluently speak the language with the proper dialect and 
intimately understand local history and customs--to develop and amplify 
messaging that undermines extremist activities and messages. This model 
enables rapid relevant responses to destabilizing messages and events 
in near real-time, not days or weeks, while simultaneously allowing 
SOCOM to closely monitor messages and impact. Our European allies are 
also leveraging a similar model with great success. What steps are you 
taking to replicate this model and share these best practices with 
other commands within DOD that engage in information operations?
    General Thomas. USSOCOM deploys Military Information Support Teams 
(MIST) to conduct Military Information Support Operations (MISO) in 
direct support of Geographic Combatant Commanders' (GCC) military 
objectives--within and outside of areas of hostilities--with Chief of 
Mission concurrence. This support includes advising and assisting 
partner nations' information professionals--who fluently speak local 
languages with the proper dialect and intimately understand local 
history and customs--to develop and amplify messaging that undermines 
adversary activities and increases our partners' abilities to 
effectively address shared security concerns in their regions. Finally, 
USSOCOM leverages experience developing counter terrorism MISO programs 
to assist GCCs as they develop MISO programs that provide authorities 
under which combatant commanders can more quickly and effectively plan 
and execute MISO in support to achieve their assigned missions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Do you think section 922 of the FY17 NDAA gave you the 
tools you need to be effective in providing oversight of USSOCOM or 
does this committee need to do more to assist you?
    Secretary West. The DOD is continuing to look at how to best 
implement 922 as an important component of the new NDS's emphasis on 
reform. SO/LIC has completed a number of important actions that lay the 
groundwork for full and successful implementation of Section 922. 
Examples include:
    <bullet>  The Deputy Secretary of Defense designated ASD(SO/LIC) as 
a member of the Deputy's Management Action Group (in addition to 
membership by the Under Secretary of Defense for Policy).
    <bullet>  The Deputy Secretary of Defense designated ASD(SO/LIC) as 
a participant in selected Special Access Programs Oversight Council 
meetings.
    <bullet>  The Deputy Secretary of Defense delegated to ASD(SO/LIC) 
approval authority for selected civilian personnel actions equivalent 
to Military Department Secretaries.
    <bullet>  The Deputy Secretary of Defense approved formal 
establishment of the Special Operations Policy and Oversight Council 
(SOPOC) and approved a Department of Defense Directive on the SOPOC.
    <bullet>  The Deputy Secretary of Defense provided fiscal guidance 
to ASD(SO/LIC).
    Additionally, over the next year, ASD(SO/LIC) expects to approve 
USSOCOM's budget submission and jointly approve guidance documents
    Mr. Lamborn. Specifically, what has your office done to assess 
USSOCOM's Preservation of the Force and Families (POTFF) program? Based 
on your substantial background in the business sector, do you think a 
personal services contract is the best approach? What are the lessons 
learned from the previous five years that you want SOCOM to implement 
during your tenure as ASD SO/LIC?
    Secretary West. OSD has conducted several assessments of USSOCOM's 
POTFF Program in which SO/LIC either participated or provided 
coordination. Specifically, the Office of the Under Secretary of 
Defense for Personnel & Readiness commissioned a 2015 MITRE Corporation 
study of USSOCOM's POTFF Program. In addition, the Office of the 
Director of Cost Assessment and Program Evaluation (CAPE) is currently 
completing an evaluation of the POTFF Program. SO/LIC was provided the 
completed MITRE report and will also receive CAPE's findings. We are 
committed to ensuring that USSOCOM's POTFF Program is an effective and 
properly resourced and managed program with appropriate SO/LIC 
oversight.
    Per 10 USC Sec. 1091, personal services contractors are authorized 
for the POTFF Program. As medical professionals, and due to the 
embedded nature of POTFF Program personnel, it is important that POTFF 
Program personnel are under continuous supervision and control of a 
Government officer or employee. Moreover, as when credentialed by the 
medical treatment facility, liability concerns dictate the use of 
personal services contractors. However, DOD is fully committed to 
ensuring that USSOCOM's POTFF Program is an effective and properly 
resourced and managed program that is subject to appropriate SO/LIC 
oversight.
    One of the most important lessons learned is demonstrating return 
on investment (ROI) of U.S. taxpayer dollars, and so we are interested 
in the long-term ROI of the POTFF Program in order to evaluate the 
existing program more thoroughly and improve the effectiveness of POTFF 
efforts. What is required is statistical tracking. USSOCOM is 
synchronizing efforts to identify and capture relevant statistical data 
more accurately to show long-term ROI. We will work with USSOCOM to 
ensure the POTFF Program's effectiveness in supporting special 
operations forces' readiness.
    Mr. Lamborn. This committee has been briefed on the benefits of the 
POTFF program and the associated metrics of success. The briefings seem 
to center on the special operator's physical enhancements. What seems 
missing from every briefing to date, are the metrics and outcomes 
associated with the behavioral health part of the program. What are the 
behavioral outcomes you are trying to achieve with the program and how 
are you measuring them?
    General Thomas. It is important to note that all of SOCOM's 
clinical behavioral healthcare personnel are funded by the Defense 
Health Agency and privileged to practice through local Medical 
Treatment Facilities. With this in mind, the DOD and Services have 
required processes for monitoring quality and effectiveness for 
behavioral health providers. The command does monitor rates of 
diagnoses, suicide behaviors, and access to care among other 
indicators. Since the implementation of POTFF, the rates of depression, 
Post-traumatic stress, and alcohol abuse have remained stable or in 
some instances declined. Notably, the number of suicides has dropped by 
nearly 70%.
    The command is currently developing and testing technologies and 
processes for conducting psychological and neurocognitive assessments 
for SOF. This data will promote early intervention and also provide a 
solid foundation of data from which the command may assess the 
effectiveness of POTFF and other programs.
    Mr. Lamborn. Is participation in the POTFF program mandatory? If 
so, how do measure participation and how does the data makes its way 
into the special operator's official medical record? What happens with 
the family support data?
    General Thomas. Participation in the Human Performance Program is 
mandatory. All operators must be assessed twice a year using criteria 
specific to SOF, and based on those assessments Human Performance 
Programs are customized to the needs of the individual operator. Other 
aspects of the program, such as behavioral health, are voluntary, but 
encouraged by leaders at all levels. Since beginning the POTFF in 2012, 
the number of SOF having used behavioral health has doubled and POTFF's 
embedded service providers routinely rank highest in satisfaction and 
utility when compared with other sources of behavioral healthcare. We 
believe that the presence of behavioral health providers embedded 
within the units, along with leadership support, has impacted the 
stigma of seeking care. Although we still have work to do in this area, 
we have made significant progress.
    Many of the professional disciplines within the POTFF are 
credentialed medical providers. These providers include: physical 
therapists, athletic trainers, performance dieticians, social workers, 
psychologists and nurse case managers. As such, these providers are 
required to document their clinical work in the electronic health 
record. The local credentialing authority, typically the medical 
treatment facility commander, also provides routine quality assurance 
and oversight as with any other medical provider on an installation.
    With regard to family support data, aside from the authority 
granted to SOCOM to conduct family programs, the command is unable to 
support family support activities. This limitation was reinforced by 
Congress in 2014. For those programs that SOCOM is permitted to execute 
under Title X Sec 1788a, each activity is assessed and reported to 
Congress annually. SOCOM also works closely with the Services and OSD's 
Office of Family Policy to meet the needs of our families. OSD and the 
Services have been highly responsive to SOCOM's requirements.
    Mr. Lamborn. Do you think the Services should adopt a POTFF-like 
program to support their respective forces and families?
    General Thomas. The Services would likely benefit from adopting a 
POTFF-like capability tailored to their particular needs. SOCOM has 
engaged with each of the Services, OSD and partner nation forces 
regarding the structure and programmatic details of the POTFF program. 
Currently, each of the Services is planning or testing some variant of 
the POTFF program. SOCOM implemented the POTFF to specifically address 
pressures on special operations personnel and their families. While the 
stressors and occupational requirements for service members and 
families within the conventional forces may differ somewhat from those 
experienced by SOF, the underlying principles of POTFF are applicable 
in any military setting. Embedding multidisciplinary teams within 
tactical units, no matter the Service, is a sound approach to enhancing 
the quality of life and readiness of Service Members and their 
families.
    Mr. Lamborn.As your senior in the administrative chain of command, 
what do you think ASD SO/LIC's role should be in overseeing the 
promotions and professional military education compared to the Military 
Departments?
    General Thomas. ASD SO/LIC should be afforded the opportunity to 
coordinate on Service changes to promotion and professional military 
education policies and processes, prior to publication and 
implementation, to ensure SOF equities are considered. The latest 
assessment shows the majority of Special Operations Forces continue to 
experience promotion selection rates that are comparable to, or better 
than, the rates of their peers in the conventional forces. 
Additionally, professional military education opportunities for Special 
Operations personnel are adequately available in the appropriate 
Military department.

                                  [all]


</pre></body></html>
